STATEMENT OF GREGORY H. FRIEDMAN
         INSPECTOR GENERAL
    U.S. DEPARTMENT OF ENERGY




            BEFORE THE
  U.S. HOUSE OF REPRESENTATIVES
COMMITTEE ON GOVERNMENT REFORM




                               For Release on Delivery
                    10:00 AM Thursday, March 20, 2003
Mr. Chairman and Members of the Committee, I am pleased to be here at your request to

testify on the Department of Energy's (Department) contract administration activities.



The Department is one of the most contractor dependent agencies in the Federal

government. It places great reliance on contract operations to accomplish its mission.

The basic premise of this relationship is that contractors manage the day-to-day

operations, while the Department is responsible for administering the contracts to ensure

that the taxpayers receive fair value for their money and that the contractors are held

accountable for their performance.



Although the Department has made some progress in restructuring its contract activities,

our reviews have shown that the Department has not done an adequate job of contract

administration. As a result, taxpayer funds have not always been spent economically and

efficiently. Because of the critical importance of contract administration, the Office of

Inspector General (OIG) has performed substantial work in this area.



BACKGROUND



Facilities management contracts have been used by the Department and its predecessor

agencies since the 1940s. This continues today with key operations being performed by

over 30 such contractors. Currently, the Department, to include the National Nuclear

Security Administration (NNSA), has approximately 100,000 contract employees, plus

numerous subcontract employees, who support the Department's mission at its contractor-



                                             1
operated facilities. In Fiscal Year 2002, for example, $15.7 billion, or nearly 75 percent,

of the Department's budget was spent on its facilities management contracts. The

Department's contractors use these funds to maintain and secure the Nation's nuclear

weapons stockpile, remediate environmental contamination from past weapons

production, and conduct leading-edge research and development activities.



The Federal Acquisition Regulation authorizes the Department to enter into these unique

facilities management contracts. We have observed a number of differences between

facilities management contracts and traditional cost-type contracts. Facilities

management contracts generally:



   •   Indemnify the contractors for virtually all costs and liabilities incurred;

   •   Have succeeding contractors retain all but a few employees of the preceding

       contractor;

   •   Are frequently extended noncompetitively;

   •   Do not require submission of traditional invoices for review, approval, and

       payment; and,

   •   Allow the contractor to draw funds from a letter-of-credit account as costs are

       incurred rather than bill the Department after the fact.



Because of these differences, the Department's contractors have been provided significant

flexibilities. These flexibilities, in some cases, have led to great benefits, but they have

also created opportunities for mismanagement of taxpayer-provided resources.



                                              2
Over the past several years, based on criticisms of its contracting practices, the

Department has initiated a series of actions to modify and reform its contract

administration activities. These included developing alternative contracting approaches,

increasing competition, and using performance-based contracts. The General Accounting

Office's report on contract reform (GAO-02-798, September 2002) addresses these

initiatives and the progress the Department has made. In addition, partially as a result of

OIG reports, the Department has recently:



   •   Completed a comprehensive "top-to-bottom" review of its environmental

       management program;

   •   Modified its field structure to eliminate an unnecessary layer of management; and,

   •   Held the University of California accountable for procurement and property

       deficiencies at Los Alamos National Laboratory.




CONTRACT ADMINISTRATION CHALLENGES



Despite the Department's reform efforts, our reviews have indicated that more needs to be

done to strengthen its administration of contractor operations. In the past, the

Department has not always effectively monitored contractor performance or held the

contractors accountable for their actions. Our reviews have disclosed continuing

weaknesses, including the failure to:




                                              3
   •   Develop quantifiable, outcome-oriented contractor performance measures;

   •   Maintain a system to track critical aspects of contractor performance;

   •   Require strict adherence to contract terms;

   •   Require utilization of a full range of project management tools; and,

   •   Rate and reward contractors commensurate with their performance.



Our recent special report on Management Challenges at the Department of Energy

(DOE/IG-0580, December 2002) highlighted the continuing challenges the Department

faces in contract administration. This report identified seven key management

challenges, which represented the most serious management and performance issues that

impacted the Department's ability to carry out its critical missions. Since the Department

is heavily reliant on contractors to perform its missions, contract administration

permeates all of these areas. A discussion of these challenges follows, and serves to

illustrate the problems the agency has faced, and continues to face, in implementing an

effective contract administration strategy.




                     PROJECT MANAGEMENT/PROCUREMENT


Our reviews have shown that the Department's contractors continue to experience

problems in managing large projects. At the request of the NNSA, we conducted a

review of the Tritium Extraction Facility under construction at the Savannah River Site,

operated by Westinghouse Corp. and Bechtel Inc. Our report, The Department of



                                              4
Energy's Tritium Extraction Facility (DOE/IG-0560, June 2002), disclosed that the

project might cost approximately $100 million more than planned and will not be

completed by February 2006, as scheduled. In this case, as well as in other projects we

reviewed, Department officials did not require that its contractors make full use of project

management controls. We raised similar concerns in our reports on the Pit Production

Project at Los Alamos National Laboratory, operated by the University of California, and

the Spallation Neutron Source Project at Oak Ridge National Laboratory, operated by

University of Tennessee-Battelle.



More recently, my office conducted a special inquiry at the Los Alamos National

Laboratory. The focus of this review was to determine whether the Laboratory had

engaged in a deliberate cover up of procurement irregularities and security concerns. Our

report on Operations at Los Alamos National Laboratory (DOE/IG-0584, January 2003)

noted that a series of actions taken by Laboratory officials obscured serious property and

procurement management problems and weakened relevant internal controls. These

actions created an atmosphere in which Los Alamos employees were discouraged from,

or had reason to believe they were discouraged from, raising concerns to appropriate

authorities. During the time period in question, the Department gave the Laboratory an

excellent rating in both personal property management and procurement management.



In addition, our report on the U.S. Department of Energy’s Purchase Card Programs -

Lessons Learned (I01OP001, February 2002) disclosed misuse of purchase cards, the vast

majority of which were in the hands of contractor employees. Even when appropriate




                                             5
policies and procedures were present, they were not adequately enforced. The

Department's Chief Financial Officer, in a recent follow-up review, identified instances

where:

     cardholders and approving officials did not follow established

     procedures, and where existing controls and procedures were not

     adequate to safeguard against misuse. Major causes included:

     ineffective implementation of basic controls such as prior authorization

     of purchases and approving official reviews, a proliferation of

     cardholders, inadequate training, and a lack of specific criteria for

     cardholder and approving official accountability for purchases.




                            ENVIRONMENTAL CLEANUP


In an effort to make the Department's environmental remediation program more effective

and efficient, Secretary Abraham directed the Office of Environmental Management to

conduct a "top-to-bottom" assessment of all aspects of this $210 billion program. The

2002 assessment report concluded that remediation activities, which are largely

performed by contractors, have not focused on reducing risk or completing the cleanup

with an appropriate sense of urgency.



Our reviews of the Department's contractor operations have disclosed similar problems.

In our report, Remediation and Closure of the Ashtabula Environmental Management

Project (DOE/IG-0541, January 2002), we found that the Department had not required




                                             6
strict compliance with the terms of the remediation contract. For instance, the contractor

(RMI Titanium Co.) did not always follow the approved Department decommissioning

plan for the Ashtabula site. Additionally, the contractor incurred questionable costs and

developed new technologies instead of dedicating resources to site remediation activities.

As a result, the cleanup effort at Ashtabula might not be completed until 2012 instead of

2003, as originally scheduled. This would extend the 10-year expected life of the project

to 19 years, resulting in a likely increase in project costs (and the burden on the

taxpayers) of over $60 million.



In our report, Disposition of the Department's Excess Facilities (DOE/IG-0550, April

2002), we found that the Department and its contractors did not fully consider mission

requirements, risk reduction, and costs when prioritizing facility disposition activities at

contractor-operated facilities. In certain cases, disposition plans were in conflict with

requirements for new facilities. In other instances, facilities posing little risk to human

health and the environment were decommissioned while Department contractors deferred

disposition of buildings representing substantially greater risks.



Further, in our report, Treatment of Mixed Incinerable Waste (DOE/IG-0588, March

2003), we noted significant inefficiencies in the treatment and storage of the

Department's mixed incinerable waste at contractor locations. For example, the

Department continued to pay a contractor substantial costs and fees for operation of the

Toxic Substances Control Act Incinerator operations at Oak Ridge, even though

minimum burn requirements were not being met.




                                              7
                  INFORMATION TECHNOLOGY MANAGEMENT


With an estimated $1.4 billion annual expenditure for information technology (IT), it is

essential that the Department and its contractors develop and implement an effective IT

management investment and control process. The Clinger-Cohen Act of 1996 and the

E-Government Act of 2002 were intended to enhance the management and control of IT.

Further, the President’s Management Agenda encourages the use of electronic commerce

to make it simpler for citizens to receive high-quality services from the Federal

government while reducing the cost of delivering those services.



Although the Department continues to integrate IT into all aspects of its missions, it has

experienced a substantial challenge in fully implementing the requirements of the

Clinger-Cohen Act and related information security legislation. To illustrate, our report,

Nuclear Materials Accounting Systems Modernization Initiative (DOE/IG-0556, June

2002), concluded that the Department had not adequately managed activities to redesign,

modernize and integrate its nuclear materials accounting systems. Presently, the

Department and its contractors maintain over 50 separate tracking systems, many of

which are duplicative and inefficient.



Similarly, we found that while the Department had taken a number of positive steps to

improve its unclassified cyber security program, many of its critical information systems,

particularly at contractor locations, remain at risk. For example, our report, The



                                             8
Department's Unclassified Cyber Security Program 2002 (DOE/IG-0567, September

2002), concluded that the Department and its contractors had not: (1) consistently

implemented a risk-based cyber security approach; (2) assured continuity of operations

through adequate contingency and disaster recovery planning; (3) strengthened its

incident response capability by reporting all computer incidents; (4) ensured that

employees with significant security responsibilities had received adequate training; or (5)

adequately addressed configuration management and access control problems.




                                NATIONAL SECURITY



While the deterrent provided by nuclear weapons has been, and continues to be, a key

component of the Nation's security posture, the Department and the Nation face a

complex set of challenges related to defending against worldwide threats. These

challenges, brought to the forefront by the events of September 11, 2001, require the

Department and its contractors to consider implementing new security measures.



The OIG recently issued a report, The Department's Unclassified Foreign Visits and

Assignments Program (DOE/IG-0579, December 2002), which disclosed that two

contractor-operated laboratories had not adequately controlled unclassified visits and

assignments by foreign nationals. While such visits and assignments can benefit the

Department, the laboratories, and international partners by providing a forum for the

exchange of scientific information, they also pose certain security risks. We found that




                                             9
complete and up-to-date passport and visa information was not being maintained at the

two contractor-operated laboratories examined. Also, access to a contractor site was

frequently granted before required approvals were obtained and background indices

checks were performed. In addition, the laboratories were not forwarding complete and

up-to-date information on foreign visits and assignments to Department officials who

were responsible for managing this program.



The OIG has also reported on weaknesses in remote access to unclassified information

systems. In our report, Remote Access to Unclassified Information Systems (DOE/IG-

0568, September 2002), we found that many offices had not implemented risk-mitigation

strategies. Of the 13 Department and contractor organizations included in our review:



   •   Ten had not considered the risk associated with remote access when developing

       cyber security protection plans;

   •   Nine had not developed specific guidance addressing remote access security

       requirements; and,

   •   Nine had not required the use of protective measures such as personal firewalls,

       and up-to-date virus protection and systems software, when accessing network

       resources.



Inadequate protective measures placed critical Department and contractor unclassified

information systems at risk of attack from internal and external sources and could




                                           10
ultimately result in data tampering, fraud, disruptions in critical operations, and

inappropriate disclosure of sensitive information.




                           PERFORMANCE MANAGEMENT



The Department and its contractors have also been criticized for deficiencies in

performance management, an emphasis area in the President's Management Agenda.

Noted deficiencies included performance measures that: (1) were not quantifiable; (2) did

not support key goals; and, (3) were not results oriented. To illustrate, our report on

Environmental Management Performance Measures (DOE/IG-0561, June 2002) noted

that although the Office of Environmental Management had developed a number of

corporate and project-specific performance measures, these measures did not capture

overall program results. Specifically, the measures did not cover the majority of cleanup

projects or budgets at contractor locations, capture overall program performance, or

appropriately address risk. The lack of focus of the measures on overall program results

deprived the Department and its contractors of a valuable tool for monitoring the progress

of the cleanup program.



OIG reports have also identified specific contractor-operated programs that would have

benefited from enhanced performance measurement. For example, our report on

Synchrotron Radiation Light Sources at Lawrence Berkeley National Laboratory and

Stanford Linear Accelerator Center (DOE/IG-0562, July 2002) disclosed that the beam




                                             11
lines at Berkeley, operated by the University of California, were idle during 35 percent of

the time when we made observations. Berkeley did not have a centralized scheduling

system and, therefore, was unaware that additional beam time was available. As a

consequence, scientifically-valid research proposals were rejected for study. We found

that the Department did not require its contractors to track and report actual use of the

facilities or establish useful performance measures to evaluate beam line use.




                              STOCKPILE STEWARDSHIP



The Department and its contractors are actively involved in maintaining the safety,

reliability, and performance of the aging nuclear weapons in the Nation's stockpile.

During the past year, OIG reports have addressed difficulties in meeting this critical

mission. For example, our report on the National Nuclear Security Administration's Test

Readiness Program (DOE/IG-0566, September 2002) disclosed that, based on the current

status of available human and physical resources, the ability of the Department and its

contractors to conduct an underground nuclear test within established parameters was at

risk. A report issued by the Nevada Operations Office, Enhanced Test Readiness Cost

Study, similarly concluded that the Department's ability to maintain a test readiness

posture of 24 to 36 months was "at risk."



In addition, our report on The Department of Energy's Pit Production Project, (DOE/IG-

0551, April 2002) disclosed that it was unlikely that the Department's contractor would

be able to produce a certifiable pit in accordance with its performance plans. The Los



                                             12
Alamos National Laboratory had the lead on this project. As of December 2001, over

half of the approximately 40 nuclear manufacturing processes that will be used to

produce pits were behind schedule.



More recently, our report, Refurbishment of the W80 – Weapon Type (DOE/IG-0590,

March 2003), disclosed that it is unlikely that NNSA's W80 refurbishment project, which

is estimated to cost over $1 billion, will meet its scope, schedule, and cost milestones.

Specifically, Lawrence Livermore National Laboratory, operated by the University of

California, and Sandia National Laboratories, operated by Lockheed Martin Corp., had

cancelled and delayed testing, weapon component completion, and support-facility

renovation activities, without notifying NNSA.




                           WORKER/COMMUNITY SAFETY



OIG reports have also identified problems related to contractor updates of safety

procedures. For example, our previously mentioned report on the National Nuclear

Security Administration's Test Readiness Program (DOE/IG-0566, September 2002)

disclosed that contractors at the Nevada Test Site had not fully incorporated enhanced

nuclear safety requirements into their nuclear explosives studies. Outdated or incomplete

procedures could affect the Department's ability to resume underground testing should

the President determine that such tests are necessary.




                                             13
Likewise, our report on the National Nuclear Security Administration's Nuclear

Explosive Safety Study Program (DOE/IG-0581, January 2003) disclosed that required

comprehensive safety studies at Pantex, operated by BWXT Pantex, LLC, had been

delayed for a majority of active nuclear weapons in the Nation's stockpile. Without

approved safety studies, NNSA faced disruption to its nuclear weapons surveillance

testing and dismantlement activities. In addition our report on Explosives Safety at

Selected Department of Energy Sites (DOE/IG-0578, December 2002) indicated that

improvements could be made in the areas of explosives, fire, and lightning safety at

contractor-operated facilities in Nevada and Tennessee.




CONCLUSION


Failure of the Department to effectively manage certain aspects of its contract operations

has led to excess expenditure of funds, use of taxpayer funds for purposes not intended,

wasteful management practices, and excessive project costs.



Based on the work that the Office of Inspector General has completed over the years, we

believe that Department managers must place even greater emphasis on efforts to adopt

sound contract administration practices. Specifically, the Department must:



   •   Develop its own realistic expectations of desired outcomes;

   •   Establish clear contractor performance metrics;

   •   Closely monitor contract activities;


                                              14
   •   Hold contractors accountable for their performance; and,

   •   Maximize competition.



Addressing the challenge of contract administration will require the commitment of all

parties involved. In this regard, the Office of Inspector General will continue to focus on

ways to improve the Department's operations and its contract management practices.



Mr. Chairman and Members of the Committee, this concludes my prepared testimony. I

will be pleased to answer any questions.




                                            15
